audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Harrisburg, Pennsylvania,
Bureau of Police 
GR-70-00-008  
December 21, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Harrisburg, Pennsylvania, Bureau of Police.  The purpose of the grants is to enhance community policing.  Harrisburg was awarded a total of $750,000 to hire 10 new police officers and $86,636 to redeploy the equivalent of 3.5 full-time officers to community policing.  	

	We reviewed Harrisburg's compliance with seven essential grant conditions.  We found weaknesses in the two areas identified below.  In addition, Harrisburg officials indicated that they would not use $375,000 in UHP funds awarded to hire five officers. As a result, we recommend that COPS deobligate $375,000 and put the funds to better use. 1

Grantee reimbursement requests contained incorrect costs for officer fringe benefits.  

	The Department Initial Report was incorrect.  One of the three required annual reports was not filed.  All of the Financial Status Reports were inaccurate and six of the fourteen required reports were not timely.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I. 



Footnote
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.